HHS/OIG-Audit--"Follow-Up Review on Internal Control Weaknesses in the Foodand Drug Administration's Medical Device 510(k) Review Process, (A-03-92-00605)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Review On Internal Control Weaknesses in the Food and Drug Administration's Medical Device 510(k) Review
Process," (A-03-92-00605)
February 26, 1993
Complete
Text of Report is available in PDF format (581 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final follow-up audit report discloses that the Food and Drug Administration (FDA) had fully or partially taken steps
to address the 10 recommendations included in our prior report. Among other things the FDA had established a written "first-in,
first-reviewed" sequencing policy, analyzed the propriety of its policy to expedite certain 510(k) submissions, and
monitored corrective actions. However, we found more needs to be accomplished in those partially implemented areas in order
to more fully address the internal control weaknesses we initially disclosed. We are making recommendations in this report,
which, if implemented, should help strengthen the internal controls of the 510(k) process.